No. _ __

IN THE SUPREME COURT OF THE UNITED STATES

FRANCISCO ZENDEJAS,
Petitioner,
V.

UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
Motion for Leave to Proceed In Forma Pauperis

Pursuant to 18 U.S.C. ยง 3006A and Supreme Court Rule 39, the Petitioner,
Francisco Zendejas, asks for leave to file a Petition for Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit without pre-payment of fees or costs
and to proceed in forma pauperis. The Petitioner was represented by counsel
appointed pursuant to 18 U.S.C. ยง 3006A in the district court and on appeal to the
United States Court of Appeals for the Ninth Circuit.
Respectfully submitted,

September 17, 2020

Harim P. Raghupathi
Federal Defenders of an Diego, Inc.
225 Broadway, Suite 900
San Diego, California 92101
Telephone: (619) 234-8467
Attorneys for Mr. Zendejas

